AUDIT OF DEFICIENCIES IN OFA’s

PURCHASE REVIEW PROCESS FOR

     BACKLOGGED LOANS

    Audit Report Number: 6-35

       September 29, 2006
                         U.S. SMALL BUSINESS ADMINISTRATION
                             OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20416

                                                                                      AUDIT REPORT
                                                                            Issue Date: September 29, 2006
                                                                            Report Number: 6-35

TO:                 Janet A. Tasker
                    Acting Associate Administrator for Financial Assistance

                    /s/ original signed
FROM:               Debra S. Ritt
                    Assistant Inspector General for Auditing

SUBJECT:            Deficiencies in OFA’s Purchase Review Process for Backlogged Loans

        This report summarizes deficiencies we identified in the Office of Financial Assistance’s
(OFA) purchase reviews of backlogged loans at the National Guaranty Purchase Center (Center)
in Herndon, Virginia. Backlogged loans were those with purchase demands dated prior to March
13, 2004. We reviewed SBA and, as necessary, lender loan files for 13 loans 1 we judgmentally
sampled from 115 backlogged loans that had been transferred to liquidation within 18 months of
loan approval, and had a purchase review before August 31, 2004. The purpose of our audit was
to evaluate the quality of the purchase review process to determine if it was sufficient to reduce
improper payments to lenders. The audit was conducted in accordance with Government
Auditing Standards prescribed by the Comptroller General of the United States.

         We separately issued audit reports on 5 of the 13 loans which we determined resulted in a
total of $1,044,567 in improper payments. We recommended, and SBA agreed, to seek recovery
of the overpayments.

BACKGROUND

       In January 2004, SBA established the National Guaranty Purchase Center in Herndon,
Virginia to centralize the 7(a) guaranty purchase process. The purchase process involves an
assessment of lender compliance with SBA loan requirements to establish whether payment of
the guaranty is appropriate, a repair or denial of liability on the guarantee is warranted, or
whether funds should be recovered from either the lender or secondary market holder. Thus, the
purchase review process serves to minimize erroneous payments by ensuring that SBA purchases
only those loans which were originated, closed, serviced and liquidated in accordance with the

1
    Ten of the 13 loans were selected because they had relatively large outstanding loan amounts, 1 was a
    companion loan to one of the original 10 selected, and the remaining 2 loans were made to the same borrower
    within 3 days of each other and purchased at the same time.
loan authorization, prudent lending standards, SBA regulations, and other Agency requirements.

       When the Center was established in January 2004, until it began processing lender
purchase requests in March 2004, a backlog of 1,039 requests accrued. In order to eliminate the
backlog, in April 2004, 18 Headquarters personnel from OFA were detailed to the Center to
perform the reviews of the backlogged purchase requests. While this was a one-time special
process implemented to eliminate the backlog, the Office of Capital Access indicated that
supplemental resources may be assigned if future issues arise at the Centers.

RESULTS IN BRIEF

        We identified deficiencies in the purchase reviews of 9 of the 13 loans sampled, 2 of
which had multiple deficiencies. While the problems we noted are not reflective of the Center’s
current purchase review procedures, the significant number of deficiencies identified in our
sample indicates that a high rate of improper payments may have occurred for the backlogged
loans transferred to liquidation within 18 months of loan approval. Our review determined that
OFA did not identify:

           •   $107,261 in overpayments on two CAPLines loans and missing information on
               another CAPLines loan that was needed to accurately determine the guarantee
               purchase amount;

           •   inadequate support for equity injection on four loans;

           •   unsupported use of proceeds on three loans; and

           •   unsecured collateral and a lender’s over-accrual of interest on one loan.

       We also identified a conflict of interest on one loan that was not identified in the lender’s
purchase request to SBA, reiterating the importance of reviewing lender loan files prior to
purchasing high-risk loans. Individual loan details are provided in Attachment 1.

        We are recommending the Acting Associate Administrator for Financial Assistance (1)
re-examine backlogged loans with a high-risk of improper payments, and (2) develop a purchase
review Form 327 for CAPLines loans to ensure these types of loans are adequately reviewed in
the future.

Purchase Reviews of Three CAPLines Loans Did Not Identify Overpayments and Missing
Information Needed to Determine the Guarantee Purchase Amount

       SBA CAPLines loans are used to finance cyclical, recurring, or other identifiable short-
term operating capital needs of small businesses. Purchase reviews of three CAPLines loans
[EXEMPTION 6] disclosed multiple deficiencies. OFA did not identify (1) $107,261 in over-
disbursements on two of the loans, and (2) missing cash flow information needed to accurately
determine the guarantee purchase amount on another loan. The over-disbursement of one of the
                                                 2
loans included both lender overpayments, as well as an overpayment of the guarantee amount.

        The purchase reviewers may not have identified these deficiencies because SBA’s
Purchase Review Form 327, Modification and Administrative Action, does not identify specific
review requirements for CAPLines loans. Furthermore, all three CAPLines loans were missing
or had incomplete reports on loan disbursements and repayments (Form CAP 1050). The
absence of completed forms for two of the three loans made it impossible for purchase reviewers
to determine whether the loans had been over-disbursed.

Purchase Reviews Did Not Question Inadequate Support for Equity Injection on Four
Loans

        Purchase reviewers did not verify $613,970 of required equity injections on four loans:
[EXEMPTION 6]. For example, one borrower claimed the source of a portion of its equity
injection was a loan from another business. However, we could find no standby agreement or
other evidence in the loan file to support the borrower’s claim. The purchase reviewers accepted
inadequate documentation for the required equity injections and should have requested the
additional documentation prior to making their purchase decisions on these loans.

Purchase Reviews Did Not Question Unsupported Use of Proceeds for Three Loans

        Purchase reviewers did not obtain support for how borrowers used $885,159 in proceeds
before approving the purchase of three loans: [EXEMPTION 6]. For example, one lender did
not provide support to substantiate that $177,159 in loan proceeds was used to purchase
inventory. During the audit, lenders provided adequate support documenting how borrowers
used their loan proceeds; however, purchase reviewers should have requested this documentation
prior to making purchase decisions on these loans.

Purchase Review Did Not Identify Unsecured Collateral and Over-accrual of Interest for
One Loan

        The purchase reviewer on one loan [EXEMPTION 6] did not detect that approximately
$25,000 of collateral was not properly secured by the lender, which impacted the recovery of the
loan. Furthermore, the purchase reviewer did not identify that the lender improperly recorded
the loan disbursements on its transcript, resulting in over-accrued interest of $1,399.

A Lender File Was Not Reviewed Prior to the Guarantee Purchase of a High-Risk Loan

        We identified one high-risk loan [EXEMPTION 6] involving an undetected conflict of
interest between the borrower and the valuator of the assets to be acquired with loan proceeds,
which was not included in the lender’s purchase request documentation. This conflict of interest
went undetected because SBA did not review the lender’s loan files as it is now required to do
for purchases over $250,000 that default within 12 months of final disbursement. We
recommended and SBA agreed to seek recovery of the $373,258 guarantee paid the lender for
this loan.
                                               3
Poor Quality of Purchase Reviews Due to Time and Resource Constraints

        A former SBA official, who was responsible for overseeing the purchase reviews of the
backlogged loans, informed us that Headquarters personnel who reviewed the backlogged loans
were under significant pressure from senior managers to eliminate the backlog. This was
confirmed by a Center official, who stated that the demands placed on purchase review staff
were especially intense between June and August 2004. Daily production reports for a 10-day
period in June 2004 showed that each backlog purchase reviewer processed an average of 2.3
reviews per day. This rate exceeds the 2-per-day purchase review standard established by SBA
officials. The significant number and materiality of purchase review deficiencies identified in
our sample indicate the reviewers may not have been allowed sufficient time for proper reviews
of these loans.

Recommendations

       We recommend that the Acting Associate Administrator for Financial Assistance:

   1. Perform a risk analysis of the backlog loan portfolio to identify loans with a high-risk of
      improper payment (for example, early defaulted loans with large purchase amounts) and
      perform thorough purchase reviews of these loans to identify improper purchases and
      seek recovery from lenders as necessary.

   2. Develop a Purchase Review Form 327 for CAPLines loans to ensure these types of loans
      are adequately reviewed in the future.

Management Comments and Office of Inspector General Response

       During a September 11, 2006, exit conference we shared our report findings and
recommendations with officials from the Office of Financial Assistance. They generally
concurred with our findings and recommendations and agreed to take action on the
recommendations. We consider management’s actions to be responsive to the report

We appreciate the courtesies and cooperation of SBA representatives during this audit. If you
have any questions concerning this report, please call Steve Seifert, Director of Credit Programs,
at (703) 487-[EXEMTION 2].

Attachments (2)




                                                4
                                                                                   Attachment 1


                                    Individual Loan Details

[EXEMPTION 2 AND 6]

       The purchase review did not identify that the lender had not performed the required
analysis prior to each loan disbursement on this Standard Asset Based CAPLines loan.
Consequently, SBA did not detect that the lender had over-disbursed the loan by between
$78,210 and $276,008. In Audit Report No. 6-17, we recommended and SBA agreed to seek
recovery of $88,269 from the lender on the guarantee paid.

[EXEMPTION 2 AND 6]

       The purchase review did not identify that the lender over-disbursed this Contract
CAPLines loan, and the reviewer used the incorrect transcript to compute the guarantee purchase
amount. As a result, SBA overpaid the lender by $18,992 when it purchased the guarantee. In
Audit Report No. 6-16, we recommended and SBA agreed to seek recovery of $18,992 from the
lender on the guarantee paid.

[EXEMPTION 2 AND 6]

        The purchase review did not identify that the lender had not obtained required month-to-
month cash flow projections needed to determine appropriate disbursement and repayment time
frames on this Contract CAPLines loan. The loan authorization required the lender to obtain
cash flow projections covering the contract term prior to the initial disbursement on each
contract. Since each sub-note under this loan was for a different contract, the lender should have
obtained a cash flow projection before making the initial disbursement on each sub-note.
However, there was no evidence in the lender’s file that any cash flow projections were
obtained. As a result, it appeared the sub-note repayment time frames were inappropriate. For
example, seven projects to be completed in 90 days or less had 1-year maturity dates.

        If month-to-month cash flow projections had been obtained, more appropriate maturity
dates and repayment time frames could have been established and enforced. Furthermore, if the
lender identified deficiencies in the borrower’s cash flow, some of the sub-notes may not have
been approved. Consequently, the lender could have received additional repayments and
reduced the outstanding loan balance at the time of default. We did not pursue recovery on this
loan due to the time and resources required to identify overpayments.

        The loan authorization also required the lender to obtain evidence that the borrower was
current on all Federal and State taxes and had made appropriate withholding tax deposits on
advances for payroll prior to the initial disbursement on each contract. However, the purchase
reviewer did not question whether the lender verified that the borrower was current on its taxes
or that appropriate withholding deposits had been made prior to each initial disbursement.
Consequently, SBA purchased the $221,020 guarantee and upon loan default, the borrower had
past due payroll taxes.

                                                1
                                                                                       Attachment 1

[EXEMPTION 2 AND 6]

        The purchase review did not disclose that the lender had not verified $75,920 of the
required $100,000 of equity injection for this $430,000 loan. Specifically, the source of a
cashier’s check and a down payment could not be verified. Furthermore, a loan from another
business was claimed as equity injection when there was no standby agreement or evidence to
show the loan payments were to be made from a source other than the borrower, as required. In
fact, there was evidence the borrower was repaying the loan from the cash flow of the business.
As a result, only $24,080, or 24 percent, of the required equity injection was supported, and SBA
made a $308,960 improper payment when it purchased the guarantee.

       The lender also did not provide support for a $55,000 loan disbursement for the purchase
of inventory with its purchase package, and the purchase reviewer did not question the missing
documentation prior to approving purchase of the $308,960 guarantee. However, the lender
subsequently submitted adequate support for the disbursement in response to our audit.

        Further, the purchase review did not identify the lender’s failure to properly secure
approximately $25,000 of collateral. The purchase reviewer did not recognize that several used
cars, which were found on the business premises during the lender’s site visit, were collateral on
the loan. Due to the lender’s failure to secure the used car collateral at the time of the site visit,
there was no recovery on the loan.

        The certified transcript submitted to SBA with the purchase package showed the lender
did not properly record loan disbursements, and as a result, accrued excess interest of $1,399.
The purchase reviewer did not identify this error and as a result, SBA overpaid the lender $1,399
when it honored the guarantee.

       The equity injection, collateral and interest accrual findings were presented in Audit
Report No. 5-21 and SBA recovered the $308,960 guarantee paid to the lender.

[EXEMPTION 2 AND 6]

        The purchase reviewer did not verify the entire $87,000 of required equity injection for
this $375,000 loan because she believed the equity injection was immaterial to the failure of the
business. Since this loan defaulted within 5 months of loan disbursement, a direct link between
the business failure and lack of equity injection should have been assumed in accordance with
purchase review policy. As a result, SBA made a $255,088 improper payment when it
purchased the guarantee.

       This finding was presented in Audit Report No. 5-26 and SBA agreed with the
recommendation to seek recovery of $255,088, less subsequent recoveries, from the lender on
the guarantee paid.




                                                  2
                                                                                   Attachment 1

[EXEMPTION 2 AND 6]

        The purchase reviewer accepted a withdrawal slip as proof of the required $364,000 of
equity injection without sufficient evidence for the source of the funds. During the audit we
obtained a bank statement from the lender which showed the funds were provided from the
principal’s personal bank account, and therefore constituted equity. The purchase reviewer,
however, should have requested and obtained this additional documentation before purchasing
the $654,126 guarantee.

        Support for the $653,000 in proceeds was not provided in the lender’s purchase package
as required. During the audit, the lender provided a copy of the disbursement check to address
this issue. The documentation should have been requested and obtained by the purchase
reviewer prior to the purchase of the $654,126 guarantee.

[EXEMPTION 2 AND 6]

        The purchase reviewer accepted checks written on the business accounts as support for
the $87,050 required equity injection. Since the business was an existing business at the time the
loan was made, there was no assurance the checks represented equity injection rather than
business funds. During our audit, the lender explained that the source of the equity injection was
the borrower’s existing used car business. The lender considered the used car business to be
separate from the repair business for which the borrower was obtaining the SBA loan.
Therefore, the injection of funds from the borrower’s existing used car business to the new repair
business constituted equity. The purchase reviewer should have requested and obtained this
clarification prior to purchasing the $378,553 guarantee.

[EXEMPTION 2 AND 6]

        The lender did not provide adequate documentation to substantiate the use of $177,159 in
loan proceeds approved for the purchase of inventory. Documentation in the purchase package
showed the proceeds were used to pay off a commercial loan made by the lender after the SBA
loan was approved, but prior to disbursement. There was no evidence to support that the
commercial loan was a bridge loan used for the purchase of inventory. Documentation provided
by the lender in response to our audit, however, showed the loan was a bridge loan and was used
to purchase inventory. The purchase reviewer should have requested and obtained this
documentation prior to the purchase of the $279,883 guarantee.

[EXEMPTION 2 AND 6]

        During our audit, we identified a conflict of interest between the borrower and the
valuator of the assets to be acquired with loan proceeds. The lender was aware of the valuator’s
lack of independence prior to loan disbursement, but did not inform SBA of the conflict as
required. We also determined that the lender made a false statement to SBA regarding the
independence of the valuation of the asset injection.
        Because these deficiencies were determined from information included in the lender’s
                                                3
                                                                                 Attachment 1

file, they would not have been identified during the May 2004 purchase review, which only
considered documentation included in the lender’s purchase request to SBA. However, as of
January 2005, in response to Recommendation 1A of the OIG’s audit report, No. 3-15, OFA
agreed to request the entire lender file for any loan where SBA’s purchase will exceed $250,000
and the loan defaulted or experienced loan problems within 12 months from final disbursement.
As this loan defaulted within 4 months after final disbursement and its purchase amount was
$373,258, a review of the lender’s file would be required under current purchase review
procedures. Therefore, deficiencies of this nature should be identified in the future. This
example reiterates the importance of reviewing lender loan files prior to the purchase of high-
risk loans. Our finding was presented in Audit Report No. 6-22 and SBA agreed to seek
recovery of the $373,258 guarantee paid.




                                               4
                                                                                                                       Attachment 2


                                          AUDIT REPORT DISTRIBUTION


Recipient                                                                                                   No. of Copies

Associate Deputy Administrator for Capital Access ................................................ 1

General Counsel ........................................................................................................ 3

Deputy General Counsel ........................................................................................... 1

United States Government Accountability Office .................................................... 1

Office of the Chief Financial Officer
Attention: Jeff Brown............................................................................................... 1
